HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in Utah,"(A-07-03-04012)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in Utah," (A-07-03-04012)
June 9, 2003
Complete
Text of Report is available in PDF format (1.13 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to evaluate whether the Utah Department
of Health, Division of Health Care Financing (DHCF), had established adequate accountability
and internal controls over the Medicaid drug rebate program.  We found that
the DHCF lacked sufficient internal controls with regard to the Medicaid drug rebate
program as required by federal rules and regulations.  As a result, drug rebate
receivables were perpetually understated and it is likely that the DHCF did not
receive all drug rebates and interest on disputed or late rebate payments due from
manufacturers.  Moreover, the lack of sufficient internal controls increased
the risk for fraud, waste, or abuse of drug rebate program funds.